3ftt tfje Supreme Court of tlje Uniteti

o

byy®#tis
IN RE CLEMENT MOSSERI, PETITIONER
ON PETITION FOR
AN EXTRAORDINARY WRIT OF MANDAMUS TO THE
District Court for The Southern District of New York
And the Second Circuit Court of Appeals et al.
PETITION FOR AN EXTRAORDINARY
WRIT OF MANDAMUS

FILED
MAR 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Clement Mosseri, Pro se
7 West 21st Street #1708
New York, New York 10010
954 993-2625

QUESTIONS PRESENTED
1) Is petitioner entitled to a fair hearing before an unbiased tribunal?

2) Does a poor person, Pro se litigant have a right to an attorney without costs if that tribunal
discriminates and will not give a fair hearing unless he is represented by an attorney?

3) Does the SDNY and its judges have a right to discriminate against litigants by having a
separate process for unrepresented litigants they call Pro se Intake while attorneys have access to
the Clerk’s Office in a separate building and where judges have different rules for pro se litigants
than attorneys denying fundamental rights for unrepressed pro se litigants?

TABLE OF CONTENTS
APPENDIX A

OPINIONS BELOW
JURISDICTION

2

STATEMENT OF THE CASE

4

CONSTITUTIONAL AND STATUATORY PROVISIONS INVOLVED

13

REASONS FOR GRANTING THE WRIT

14

CONCLUSIONS

15

1

INDEX TO APPENDICES
APPENDIX A

MANDATE SECOND CIRCUIT

APPENDIX B1&B2 NYC CIVIL COURT CASE SUMMARY
APPENDIX C

PROOF OF EMAIL FILINGS - MOTION FOR SUMMARY
JUDGEMENT & RECORD OF APPEAL

APPENDIX D1-D8

SDNY DOCKET SHEET

JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. 1651 (a). In the alternative, the
jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).

IN RE: LIST OF PARTIES RESPONDENTS
Ruby Krajik, Clerk of Court for SDNY, Daniel Patrick Moynihan United States Courthouse,
500 Pearl Street, New York, NY 10007-1312,
Judge John Koeltl, Daniel Patrick Moynihan United States Courthouse,
500 Pear! Street, New York, NY 10007-1312,
Judge John Cronan, Daniel Patrick Moynihan United States Courthouse,
500 Pearl Street, New York, NY 10007-1312,
Judge Colleen McMahon, Chief Judge of SDNY, Daniel Patrick Moynihan United States
Courthouse, 500 Pearl Street, New York, NY 10007-1312,
Judge Robert Sack, Circuit Judge of the United States Court Appeals for the Second Circuit
Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY 10007,
Judge Richard Wesley, Circuit Judge of the United States Court Appeals for the Second Circuit
Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY 10007,
Judge Steven Menashi, Circuit Judge of the United States Court Appeals for the Second Circuit
Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY 10007,
2

Judge Debra Livingston, Chief Judge of the United States Court Appeals for the Second Circuit
Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY 10007,
Attorneys for Plaintiff, Borah, Goldstein, Altschuler, Nahins & Goidel, P.C., 377 Broadway,
New York, N.Y. 10013,
Letitia James, Attorney General for the State of New York. Office of the Attorney General, 28
Liberty Street, New York, NY 10005, ATTN: Managing Attorney’s Office/Personal Service,
Merrick B. Garland, Attorney General of the United States, U.S. Department of Justice, 950
Pennsylvania Avenue, NW, Washington, DC 20530-0001,
Judge Anne Katz, Supervising judge of the New York County Housing Court, 111 Centre Street,
New York, NY 10013.

CASES BELOW
7 WEST 21 LI LLC vs CLEMENT MOSSERI et al. Index No. L&T 053774/2019, in the
Civil Court of The City Of New York, County Of New York: Housing Part,
7 WEST 21 LI LLC vs CLEMENT MOSSERI et al. NY County Clerk # 570594/19
In the Appellate Term of the Supreme Court, First Department Borough of Manhattan
7 WEST 21 LI LLC vs CLEMENT MOSSERI et al. in the New York State Appellate Division
of the Supreme Court First Department - Refused to hear
7 WEST 21 LI LLC vs CLEMENT MOSSERI et al. 20 CV 00279, in the US District Court
Southern District Of New York
7 WEST 21 LI LLC vs CLEMENT MOSSERI et al 20-3647, in the United States Court of
Appeals for the Second Circuit

3

STATEMENT OF THE CASE

Petitioner respectfully Petitions for an Extraordinary Writ of Mandamus to the United States
District Court for the Southern District of New York. And the United States Court of Appeals for
the Second Circuit, In the alternative, Petitioner respectfully requests that the Court treat this
petition as a petition for a Writ of Certiorari to review the actions of the United States Court of
Appeals for the Second Circuit, or as a petition for a common law Writ of Certiorari to review
the lower court’s actions and decisions in the case.

Upon information and belief Ruby Krajik, Clerk of Court, Judge John G. Koeltl, Judge John
Cronan, Judge Colleen McMahon, Chief Judge of SDNY, and Judge Debra Livingston, Chief
Judge of the United States Court Appeals for the Second Circuit, along with Plaintiffs attorneys,
Borah, Goldstein, Altschuler, Nahins & Goidel,P.C., conspired to deny Pro se Defendant
Clement Mosseri, of his due process rights under the Constitution and the laws of the United
States in order to fraudulently and illegally extort Pro se Petitioner Mosseri’s rights. Non-Judicial
acts, Judicial misconduct.
The docket sheet APPENDIX D1-D8, reflects a pattern of abuse that includes an out of
sequence entry, failing to enter a Motion for Summary Judgment sent on May 4, 2020,
(APPENDIX C), and a host of illegal and improper entries excluding Petitioner Mosseri from
any notice of those entries, that required a De novo review by the Second Circuit Court of
Appeals.

4

Upon information and belief Judge Colleen McMahon, Chief Judge of SDN Y, conspired with
Judge Debra Livingston, Chief Judge of the United States Court Appeals for the Second Circuit
to stay the appeal so that the District Court can complete their extortion plan. Misleading that
she will settle the matter. There were no offers and considering the illegal dismissal of
Petitioners Counterclaims that was defaulted by Plaintiff’s attorneys in the Civil Court with an
amount of $ 11,400,000 well above the Civil Court’s statutory monetary jurisdiction of $25,000.
Only the landlord and their agent with a net worth of $5 billion can do that. There are also
missing parties.

Upon information and belief Judge Colleen McMahon previously asked the clerk of the SDNY
to assign two other cases commenced by Petitioner Mosseri, with the United States as a party.
One as a public service and the other to correct a wrong requiring the United States to take action
And shows a pattern of abuse by SDNY to discriminate against un represented litigants.
In addition to this discrimination this court ignored Pro se Petitioner Mosseri’s legal rights in
Mosseri v FDIC 95 CV 0723-0969, that elevated a national security issue due to SDNY’s actions
and continues today.
I am entitled to a hearing. Petitioner Mosseri has a clear right to the relief sought and requests
that an immediate stay be issued to the lower Courts actions until this matter is heard.
Petitioner has a clear right to the relief sought, and a clear right to dismiss The Civil Court of
The City Of New York, County Of New York: Housing Part, New York Civil Court in
7 WEST 21 LI LLC vs CLEMENT MOSSERI et al. Index No. L&T 053774/2019, as they never
had jurisdiction and refuse to dismiss or stay as required under the law when it was transferred
for the sole purpose of violating Petitioners Mosseri’s Civil Rights for the benefit of Plaintiff, 7
5

7>

West 21 LI LLC, and their attorneys. The transfer of the case to the Federal District Court means
the Civil Court no longer has any jurisdiction yet they scheduled a hearing for April 26,2021
without authority to do so. and is acting criminally at the behest of Lawrence Goldstein attorney
for Plaintiff to incite the Civil Court to act illegally and act as they still have jurisdiction.

Several calls to Judge Anne Katz, Supervising judge of the New York County Housing Court
Chambers claiming, they will review the case resulted in continuing harassment and abuse by her
court because I am without counsel. Judge Katz you are subject to criminal action against you
under 42 USC § 1985 & 1986.1 am demanding that the court you supervise cease and desist any
further harassing and illegal actions.

To : Letitia James, Attorney General for the State of New York. And Merrick B. Garland,
Attorney General of the United States, you are required under 42 USC § 1986 to enforce the law
and insure Mosseri is no longer harmed by this courts that does not have jurisdiction of any
further actions

To : Judge Anne Katz, Supervising judge of the New York County Housing Court, County Of
New York: Housing Part, New York Civil Court, you are required to dismiss this case that you
never had jurisdiction, 7 WEST 21 LI LLC vs CLEMENT MOSSERI et al. Index No. L&T
053774/2019, desist all further illegal conduct by immediately dismissing the above title case
and or a criminal complaint will be issued against all parties in your court that allowed Mosseri;s
deprivations of law to take place.

6

BACKGROUND, FACTS
The lease was signed on November 14, 2017, by Petitioner and landlord’s corporate entity
7 West 21 LI LLC, for an apartment that is under the Federal Low-Income Housing Tax Credit
program, (LIHTC), by landlord providing 20% of the building units for low income individuals
which Petitioner qualified and is a Section 8 tenant. Move-in was on December 4th, 2017.

Landlords attorneys have since failed to deny on three separate fillings that the lease is not valid.
Petitioner reviews here on the merits in addition to landlord’s failure to deny.
New York Consolidated Laws RPP - Real Property Article 12-A
§443. Disclosure regarding real estate agency relationship; landlord’s agent
In dealings with the tenant, a landlord’s agent should (a) exercise reasonable skill and
care in performance of the agent’s duties; (b) deal honestly, fairly and in goodfaith; and
(c) disclose all facts known to the agent materially affecting the value or desirability of
property, except as otherwise provided by law.
The lease was procured by landlord’s agents that were unlicensed as required under Article 12A
of the laws of the State of New York. The agents withheld material facts they were required to
divulge under the law. The lease contract was not prepared by attorneys as is required under the
law. The lease was illegally and fraudulently procured and is void in addition landlord’s
attorneys failed to deny on three occasions in this litigation. The lease was illegally procured &
in bad faith.
Days after move in petitioner discovered landlord and his agents have a policy of discrimination
affecting low income tenants. The apartment was built for mobility handicapped individual
which petitioner is not and lacked compliance with FCC rules and regulations that are necessary
for petitioner’s hearing disability. Petitioner would have passed on this apartment if landlord
was open and frank.
7

Landlords agent agreed to a moveout by Petitioner by giving 30-day notice. Petitioner had other
opportunities for an apartment at the time that were no longer available and now suffered
damages.

Less than 4 months after move-in landlords agents demanded Petitioner refile an annual income
recertification under LIHTC. Petitioner is a Section 8 low income certified tenant and files his
annual recertification under HUD’s federal guidelines the same as LIHTC guidelines that are
created for the IRS LIHTC program by HUD under the U.S. Housing Act of 1937.

Landlord made a second demand a few months later that was also ignored by Petitioner.

On February 13, 2019, landlord’s attorneys, Borah, Goldstein, Altschuler, Nahins & Goidel, P.C.
Filed a Hold Over Petition, in the Civil Court of the City of New York, Index L&T 053774/2019.

Petitioner, Pro se and poor requested and was referred by the Court to obtain an attorney without
costs in one of the programs. Petitioner was later denied for lack of funds in the program.
Petitioner took up his own cause Pro se and poor. On June 11, 2019, Petitioner filed Motion to
Dismiss under CPLR 3211 (a) 1&10 for failing to include a necessary party, The United States
IRS that administers the LIHTC program, to answer the Federal question are Section 8 to
Tenants Required to File Recertification with Landlord Under the law. Petitioner found the
answer in 26 CFR Ch. I § 1.42-5 (b), 1 (vii), gives a clear course to follow providing the
procedure to fulfill landlord’s obligation and an exception for Section 8 tenants’ recertification.
The relevant portion on how to comply for a Section 8 tenant is as follows,
In the case ofa tenant receiving housing assistance payments under Section 8, the
documentation requirement of this paragraph (b)(l)(vii) is satisfied if the public housing
authority provides a statement to the building owner declaring that the tenant’s income
does not exceed the applicable income limit under section 42 (g);
8

A waiver to rectification of a tenant by landlord to the IRS is fulfilled by the landlord requesting
tenant to sign and date an information release form to HPD, HUD’s agent in NYC, and is
available at any Housing Authority in the country that has LIHTC units in their district.
Landlord failed to provide this form instead demanded a massive recertification for a Section 8
tenant.

Petitioner also filed a Counterclaims Complaint seeking the sum of $3,800,000.00 plus punitive
damages trebled to $11,400,000, from landlord.

Landlords attorneys failed to respohd, answer to both filings and defaulted in the Counterclaims
Complaint.

On August 19, 2019, faced with another adjournment, Lawrence Goldstein attorney for landlord
when out of the courtroom shopping for another judge. The case was transferred to another
courtroom before Judge Clifton Nembhard, with the Motion to Dismiss and Counterclaim before
him. Attorney Lawrence Goldstein claimed he did not answer the Counterclaims Complaint due
to not being able to get in touch with the landlord. Petitioner replied why didn’t you get an
extension to answer from the court? there was no reply from Goldstein. Attorney Lawrence
Goldstein then sought to amend the Holdover Petition complaint replacing the IRS with a NYS
agency that administers the LIHTC program for the IRS in the State of New York. Judge
Nembhard having no jurisdiction because he was required to dismiss the Petition Order granted
allowed landlord’s attorney Lawrence Goldstein to amend the Holdover Petition. The NY State
IRS agent was also not included and required dismissal under the law.

9

Petitioner appealed to the Appellate Term of the Supreme Court, First Department NY County
Clerk’s # 570594/19, held that Judge Nembhard’s Order was an interlocutory. Seeking an appeal
Petitioner replied before it can be claimed to be an interlocutory that court must first have
jurisdiction (which was lacking due to the Federal question). Permission to appeal denied.
Appellate Division - First Judicial Department declined to hear.
On November 19,2019 Before Judge Frances Ortiz, Judge Ortiz first asked Petitioner, defendant
if he was an attorney? Petitioner replied no. Landlords attorney, Goldstein, in order to avoid the
recording of the proceedings, coaxed Judge Ortiz by using his hands and face in order for Judge
Ortiz to abuse her authority and render decisions in his favor, denying the Motion to Dismiss the
Complaint as is required under the law, abused her authority and dismissed the defaulted
Counterclaims that were above the Courts monetary Jurisdiction and therefore twice lacking any
jurisdiction and allowed landlords attorney to amend the Holdover petition with a party that was
also not included and required dismissal under the law.
On January 13, 2020, Petitioner filed aNotice of Removal under 28 USC§ 1441, in order to get
an answer on the federal question and modify the law and served a copy to landlord’s attorneys
and the Civil Court by mail. The Civil Court was required to stay their proceeding but did not.

The Civil Court did not file it, although a copy was later provided to Petitioner by landlord’s
efforts with a hand written date of 3/10 and part F the assigned part in the court that was
scheduled to hear the case on that day before it was removed.

10

■ »

Petitioner did not appear at the Civil Court on March 10,2020 because he transferred the case to
SDNY 20 CV 00279. Lawrence Goldstein, landlord’s attorney appeared even though he knew
the case was removed to SDNY demanded a default in a court he knew had no jurisdiction.
Grounds for disbarment.
Every decision in the State and Civil Court was intended to deny Petitioner his rights under the
Fourteenth Amendment and statutes of laws, because he was without counsel and they believed
they can dupe Petitioner into believing they were making decisions under the law.

Every decision in the SDNY as shown on the Docket Sheet, Appendix D1-D8, is a testament that
every act, every decision by the court was intended to deny Petitioner his rights under the Fifth
Amendment and laws of the United States because he was without counsel and they believed
they can fool Petitioner into believing they were making decisions under the law.

They threatened to remand to a Court that never had jurisdiction and was repeatedly violating
Petitioners Civil Rights. The Docket entries are maligned and do not follow procedure and the
law, there was a Motion for Summary Judgement made early in the litigation on May 4,2020,
along with a record of appeal that was also not docketed, disappeared of the face of the earth.
The docket sheet entries are not in order as required under the rules. Petitioner was intentionally
kept out of the loop. Docketed entries that claim sending Petitioner notice of decisions are false.

Fraud, mail fraud, wire fraud, intimidation as outlined in 42 U.S. C. §1985, failure to prevent
under 42 U.S. C. §1986 and the RICO Statutes are all relevant here. The enterprise, the landlord.

11

An appeal was filed in the US Court of Appeals for the Second Circuit, 20-3647, 21-94, 21-180,
21-293, for each maligned decision in SDNY, Petitioner stated De Novo Review will be sought.
Upon information and belief, two days after Petitioners filing the Second Circuit was aware of
the SDNY Civil Rights violations and did not know how to proceed, they were afraid Petitioner
would raise them when all I sought was a fair decision on the merits of the case.

Instead of making sure there was justice in SDNY they dismissed with a Mandate under the
wrong statute 28 U.S.C. § 1291. Claiming the Second Circuit did not have jurisdiction when in
fact they had proper jurisdiction under 28 U.S.C. § 1292 (b). Violations of due process by a
lower court does not allow for abuse of discretion to not hear which is what they did. They
intentional did so because Petitioner did not have an attorney and they thought he was ignorant
of his rights and wanted to protect the SDNY misconduct. Illegally denying review and violating
Petitioner’s due process of law. (Mandate Appendix A)

The Civil Court refuses to stay the case as required under the Federal statutes 28 USC§ 1441, &
28 USC§ 1446 (d). The Civil Court was mailed a copy giving notice of Removal on January 13,
2020. Even though they did not have jurisdiction since transfer on January 13, 2020, they placed
the case on the calendar four times as is reflected on their docket case summary, Appendix Bl-2.

Petitioner has a right to be before an unbiased tribunal that was consistently denied by all State
and Federal courts because he did not have counsel at his side.

12

CONSTITUTIONAL AND STATUATORY PROVISIONS
INVOLVED
28 USC §1291,
28 USC § 1292(b),
28 USC§ 1441
28 USC§ 1446 (d)
42 USC§ 1985
42 USC§ 1986

Appendix A, Page 12
Page 12
Page 10, Page 12
Page 12
Page 11
Page 6, Page 11

Preamble of The Constitution of The United States, Establish Court of Justice Page 14
Fourteen Amendment of The Constitution of The United States, Page 14
Fifth Amendment of The Constitution of The United States,
Page 14
NY Consolidated Laws - Real Property Article 12-A, §443, Page 7
CPLR 3211 (a) 1 &10,
Page 8
26 CFR Ch. I § 1.42-5 (b), 1 (vii), Page 8
U.S. Housing Act of 1937. Page 8

REASONS FOR GRANTING THE WRIT
Petitioner has a clear legal right to a fair hearing before an impartial tribunal which he did
receive in the District Courts or Appellate Courts or the Civil Court because he could not afford
an attorney’s representation.

The Judges have a duty to provide Petitioner a fair hearing before an impartial tribunal which he
did not receive.

With the Appellate decision Petitioner has no other legal remedy to obtain justice.

The courts have consistently discriminated against a poor unrepresented litigant, every decision
is maligned. No matter how accurate Petitioners arguments are they are denied and ignored the
courts have shown the rules of law do not apply to this kind of litigant.

13

The District court has shown in its conduct that distorting the official records to undercut this
kind of litigant in order to achieve an unjust end is a course of action they adopted.

This nation was founded under God. The founders were enlightened, instilled by God’s morality.
They set about to ensure this morality is perpetual into future generations of this nation.

Those moral obligations are enshrined in this Nations Constitution, “in Order to form a more
perfect Union, establish Justice”. Equality, due process of law a fair tribunal under the Fifth and
Fourteenth Amendments in the Constitution is only the beginning to establish justice. Yet they
are consistently denied to poor unrepresented litigants in the courts.

Richard Saunders, instilled his moral perfection imprint on this Nation
On JUSTICE. Wrong none by doing injuries, or omitting the benefits that are your duty. ”

You cannot establish justice unless you guarantee equality, due process, before a fair tribunal to
all litigants even those that cannot afford to pay for representation. In order to grieve their
complaints with equal standing, because the rules of law are a right afforded by everyone and not
a privilege that can arbitrarily and capriciously be denied by those “omitting the benefits that are
(their) duty” at will.
One guarantee to establish justice is to provide a guarantee of representation for poor litigants.

Follow the morality of God, and follow the morality of the founders and the foundations they
provided in the Constitution “establish justice” in this Nation and ensure justice for all.

14

CONCLUSIONS
Appointment of an attorney acceptable to Petitioner without payment of cost because he cannot
afford one and there is no justice for an unrepresented litigant in the courts. And to clean up this
Writ.

Treat this petition as a petition for a Writ of Certiorari and appoint of an attorney will clean it.
With few exceptions an unrepresented litigant is denied equal protection and due process in State
and Federal Courts. When there is an unrepresented litigant before the court there is a complete
breakdown of rights and disregard for the laws in most courts. It is the ones that cannot afford
the high price of litigation that suffer, the poor. Poverty does not mean ignorance. Nor does it
mean that the unrepresented litigant has no rights even if he knows and properly raises the law.

Petitioner is entitled to a hearing before an unbiased tribunal, to be treated equally and fairly.
Petitioner was provided instead with a biased tribunal that discriminates against litigants who are
not represented by an attorney with discrimination that goes beyond, well beyond denial of the
rules of law and well beyond the Constitutional guarantees and Due Process, they tampered and
modified the courts records in order to intentionally deny Petitioner due process of law.

Petitioner asked for time to get an attorney it was ignored. Considering the court’s actions
Petitioner is required to have representation and could not afford one therefore they ignored the
law Petitioner had no rights as represented litigant do resulting in denial of due process.

15

Based on the tribunals discrimination posture and that Petitioner is poor the court was required to
provide Petitioner an attorney to the abide by the Constitutional guarantees & rules of law of the
United States that is granted to other citizen.

Petitioner is entitled and demands a competent attorney agreeable to him to represent him
without payment of costs starting with this Writ due to the tribunal’s requirements and their
actions.
This is not the only incident Petitioner can show a Pro se litigant is routinely and consistently
denied rights under the law in State and Federal Courts because he does not have attorney
representation.
As Petitioner explained a civil litigant is required an attorney as of right if he cannot afford one.
Petitioner assessed 5-year cost of providing every indigent litigant with an attorney as of right in
civil cases. Structured properly with the right leadership and qualifications. After 3 years, costs
to the government for providing this right are negligible. In 5 years, a profit is possible to the
organization that is created.

Petitioner seeks removal of Plaintiffs Attorneys, Borah, Goldstein, Altschuler, Nahins & Goidel,
P.C., as they have consistently illegally interfered with Petitioners Civil Rights during this
Litigation. The Motion to Dismiss submitted on June 11, 2019, in the Civil Court was required to
be dismiss the case because they never had jurisdiction according to the law. They continued this
illegal behavior in the Federal Courts. Plaintiffs attorney unethical behavior unnecessarily added
almost two years to the litigation.

16

Petitioner requires removal of Plaintiff’s attorneys and reassignment of the case to another judge
in the District Court. Petitioner is also demanding non interference by any other members of the
SDNY Court including the Chief Judge Colleen McMahon, Judge John Koeltl, Judge John
Cronan and Ruby Krajik, Clerk of Court that must not distort the docket as he did before.

How can Petitioner now trust the SDNY or the 2nd Circuit? Not possible.

The Office of the Clerk for the Southern District of New York as well as some other Districts
Courts set up a separate office for Pro se litigants calling it Pro se intake in the SDNY.
All judges have separate rules for pro se litigants.

Separate clerk’s office and separate rules governing Pro se litigants than other litigants is
unconstitutional. Separate but equal has long been decided by the Supreme Court of the United
States in Brown v. Board of Education (1954), Congress latter passed the Civil Rights Act of
1964 to insure equality, Equal Justice Under Law. Pro se litigants must have access to the same
Clerk’s office and the same judges rules of court as attorneys.
to secure a steady, upright, and impartial administration of the laws...courts ofjustice, whose
duty it must be to declare all acts contrary to the manifest tenor of the Constitution void. Without
this, all the reservations ofparticular rights or privileges would amount to nothing......
...the independence of the judges may be an essential safeguard against the effects of occasional
ill humors in the society. These sometimes extend no farther than to the injury of the private
rights ofparticular classes of citizens, by unjust and partial laws. Adding or an unjust and
partial judiciary Alexander Hamilton Federalist 78
Petitioner Clement Mosseri respectfully requests that a Writ be issued.

Respectfully Submitted,
Dated: April 28,2021
k-AgTemertt Mosseri
7 West 21st Street #1708, New York, N.Y. 10010
(954) 575-8545
17

